January 18, 2013

TO:            Judit O’Connor
               Chief Financial Officer
               National Institute on Alcohol Abuse and Alcoholism
               National Institutes of Health


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: National Institute on Alcohol Abuse and
               Alcoholism Assertions Concerning Drug Control Accounting for Fiscal Year
               2012 (A-03-13-00359)


This report provides the results of our attestation review of the National Institute on Alcohol
Abuse and Alcoholism (NIAAA) fiscal year (FY) 2012 assertions concerning drug control
accounting and accompanying table of FY 2012 Actual Obligations (Table).

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP), not later than February 1 of each year, a detailed
accounting of all funds expended by the agency for National Drug Control Program activities
during the previous FY (21 U.S.C. § 1704(d)(A)). The section further requires that the
accounting be “authenticated by the Inspector General for each agency prior to submission to the
Director.” The report and related assertions are the responsibility of NIAAA’s management and
were prepared by NIAAA as specified in section 6 of the ONDCP Circular entitled Drug Control
Accounting, dated May 1, 2007.

As required by the Federal statute (21 U.S.C. § 1704(d)(A)), we reviewed the attached NIAAA
report entitled “Assertions Concerning Drug Control Accounting,” dated November 29, 2012.
We conducted our attestation review in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. A review is substantially less in scope than an examination, the objective of
which is to express an opinion on management’s assertions contained in its report; accordingly,
we do not express such an opinion.
Page 2 – Judit O’Connor


NATIONAL INSTITUTE ON ALCOHOL ABUSE AND ALCOHOLISM

NIAAA reported obligations totaling $61,732,956.

In accordance with ONDCP requirements, NIAAA made the following assertions:

   •   NIAAA reported its actual obligations from its accounting system of record for the
       reported budget decision unit,

   •   NIAAA’s drug methodology used to calculate obligations of prior-year budgetary
       resources by function were reasonable and accurate in accordance with the criteria in
       section 6b(2) of the ONDCP Circular,

   •   the drug methodology that NIAAA disclosed in its report was the actual methodology
       used to generate the required Table,

   •   NIAAA had no budgetary transfers of obligations to report, and

   •   NIAAA reported obligations against a financial plan that complied with ONDCP
       requirements.

We performed review procedures on NIAAA’s assertions and the accompanying Table. In
general, we limited our review procedures to inquiries and analytical procedures appropriate for
the attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that NIAAA’s
assertions and accompanying Table were not fairly stated, in all material respects, based on the
ONDCP Circular.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and NIAAA and is not intended to be,
and should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00359 in all correspondence.


Attachment
ATTACHMENT
                                                                                             ATTACHMENT
                                                                                             Page 1 of 2


         ,.SU,V1Cls.
       ~..                  ~.1

   (         ~                    DEPARTMENT OF HEALTH & HUMAN SERVICES                       Public Health Service
                                                                                              National Institutes of Health

       ~~~~ 

         ;{It .... lO (;.
                                                                                              National Institute on Alcohol
                                                                                              Abuse and Alcoho lism
                                                                                              5635 Fishers Lane
                                                                                              Bethesda, MD 20892-9304

November 29,2012

MEMORANDUM TO:                             Director Office of National Drug Control Policy

THROUGH:                                    Sheila Conley
                                            Deputy Assistant Secretary of Finance
                                            Department of Health and Human Services

FROM:                                       Judit O'Connor            rr- cU     0 C0~U
                                                                                  1


                                            Chief Financial Officer                            It   /2!J 1:2       (:2--­
                                            National Institute on Alcohol Abuse and Alcoholism                 0

SUBJECT:                                    Assertions Concerning Drug Control Accounting

In accordance with the requirements of the Office of National Drug Control Policy Circular
"Annual Accounting of Drug Control Funds," I make the following assertions regarding the
attached annual accounting of drug control funds:

Obligations by Budget Decision Unit

I assert that obligations reported by budget decision unit are the actual obligations from the
National Institutes of Health (NIH) financial accounting system for this budget decision unit
after using the National Institute on Alcohol Abuse and Alcoholism's (NIAAA) internal system
to reconcile the NIH accounting system during the year.


Methodology

I assert that the methodology used to calculate obligations of prior year budgetary resources by
function for the institute was reasonable and accurate in accordance with the criteria listed in
Section 6b(2) of the Circular. Obligations of prior year underage drinking control budgetary
resources are calculated as follows:

The NIAAA prevention and treatment components of its underage drinking research are included
in the ONDCP drug control budget. Underage drinking research is defined as research that
focuses on alcohol use, abuse and dependence in minors (children under the legal drinking age of
21). It includes all alcohol related research in minors, including behavioral research, screening
and intervention studies and longitudinal studies with the exception of research on fetal alcohol
spectrum disorders resulting from alcohol use by the mother during pregnancy. Beginning with
                                                                                    ATTACHMENT
                                                                                    Page 2 of 2


the reporting of FY 2010 actual obligations, NIAAA' s methodology for developing budget
numbers uses the NIH research categorization and disease coding (RCDC) fingerprint for
underage drinking that allows for an automated categorization process based on electronic text
mining to make this determination. Once all underage drinking projects and associated amounts
are detennined using this methodology, NIAAA conducts a manual review and identifies just
those projects and amounts relating to prevention and treatment. This subset makes up the
NIAAA ONDCP drug control budget. Prior to FY 2010, there was no validated fingerprint for
underage drinking, and the NlAAA methodology was completely dependent upon a manual
review by program officers.

Application of Methodology

I assert that the drug methodology described in this section was the actual methodology used to
generate the table required by Section 6a of the Circular.


Repro2ramming or Transfers

I assert that NIAAA did not reprogram or transfer any funds included in its drug control budget.

Fund Control Notices

I assert that the obligation data presented are associated against a financial plan that complied
fully with all Fund Control Notices issued by the Director under 21 U.S .C. 1703(t) and with
ONDCP Circular Budget Execution. dated May I, 2007.

                              NATIONAL INSTITUTES OF HEALTH
                           NATIONAL INSTITUTE ON ALCOHOL ABUSE
                                      AND ALCOHOLISM
                                  FY 2012 ACTUAL OBLIGATIONS
                                       (Dollars in Thousands)



                                                      FY 2012
                                                       Actual
Drug Resources by Function:
 Research and Development: Prevention                  $53,755
 Research and Development: Treatment                    $7,978
  Total Drug Resources by Function                     $61,733

Drug Resources by Decision Unit:
 National Institute on Alcohol Abuse and               $61,733
Alcoholism
